WAIVER

Supreme Court, U.S.
FILED

NOV 2 5 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-570

Greg S. Elofson

v.

Stephanie Bivens, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
D Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Paul Theut

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar m iser.
Signature
Date.

November 22, 2019

(Type or print) Name

Shane M. Cahill
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Long & Levit LLP

Address

465 California Street, 5th Floor

City & State
Phone

San Francisco, CA

415.397.2222

Zip
Email

94104

scahill@longlevit.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Betsy S. Kimball, William M. Litt, Debra J. Albin-Riley, Sara T. Schneider, Sean St. Clair, Debra S. Sturmer and Enoch Wang

LONG & LEVIT LLP
A TTORNEYS AND COUNSELORS AT L AW

Shane M. Cahill
Partner

November 25, 2019

scahill@longlevit.com
Direct Dial: 415-438-4594

S1169.385

VIA FEDEX
Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543-0001
Re:

Greg Steven Elofson v. Stephanie Bivens, et al.
U.S. Supreme Court Case No. 19-570
Waiver Form

Dear Sir/Madam:
Enclosed please find an original Waiver Form, along with two copies of same. Please endorsefile the Waiver Form and return a stamped copy in the enclosed postage pre-paid envelope.
Thank you for your assistance in this matter.
Very truly yours,

Jan'

wley
nt to Shane M. Ca

nclosures
Ltr to Supreme Court with Waiver Form 4833-0113-0926 v.l.docx

465 California Street . 5th Floor . San Francisco, CA 94104. Tel: 415-397-2222 . Fax: 415-397-6392 . www.longlevit.com

